Case: l:18-cv-06356 Document#: 7 Filed: 04/12/19 Page 1 of 2 PagelD#:22

United States District Court
for the Northern District of Illinois
Eastern Division
RUBEN SANCHEZ

)
)

Plaintiff,

)

No. 18 C 06356

)

v.

)
)

UNITED STATES et al,

Judge Edmond E. Chang

)
)

Defendants.

)

Order
Plaintiff Ruben Sanchez has filed a pro se complaint and seeks to proceed in
forma pauperis. The financial affidavit, R. 4, does establish that Sanchez is
financially unable to pay the filing fee. But because he seeks to proceed in forma
pauperis, the complaint is governed by 28 U.S.C. § 1915(e)(2)(B), which requires the
dismissal of (1) “frivolous” claims, § 1915(e)(2)(B)(i), see Vey v. Clinton, 520 U.S. 937,
937 (1997); (2) complaints that fail to state a claim, § 1915(e)(2)(B)(ii), Jaros u. IDOC,
684 F.3d 667, 669 n.l (7th Cir. 2012); Rowe u. Shake, 196 F.3d 778, 783 (7th Cir.
1999); and (3) complaints that seek monetary damages against a defendant who is
immune from such damages, § 1915(e)(2)(B)(iii).
Section 1915(e)(2) applies to all litigants who seek to proceed in forma pauperis
status, not just prisoners. See Vey, 520 U.S. at 937 (denying in forma pauperis status
to file certiorari petition from appeal and applying § 1915(e)(2)(B)(i) to non-inmate);
Jaros, 684 F.3d at 669 n.l (explaining that § 1915(e)(2) screening applies to non­
prisoner suits); Rowe, 196 F.3d at 783. In addressing any pro se litigant’s complaint,
the Court must construe the complaint expansively. Haines u. Kerner, 404 U.S. 519,
521 (1972). If there is an arguable basis for a claim in fact or law, then leave to proceed
will be granted. Neitzke u. Williams, 490 U.S. 319, 325 (1989). But dismissal of the
complaint is the proper course where it is clearly baseless or fanciful, Denton u.
Hernandez, 504 U.S. 25, 32-33 (1992), or fails to state a claim, § 1915(e)(2)(B)(ii), or
seeks monetary damages against a defendant who is immune from such damages,
§ 1915(e) (2) (B)(iii).

1

Case: l:18-cv-06356 Document#: 7 Filed: 04/12/19 Page 2 of 2 PagelD #:23

Here, the complaint seeks damages against immune defendants and, in any
event, is frivolous. First, it is not even clear against whom the complaint is brought.
Federal Rule of Civil Procedure 10(a) requires that the title of a complaint “name all
»«
the parties.” Fed. R. Civ. P. 10(a). Sanchez’s complaint title says, “U.S., Ill,” “Cook,”
“Chicago,” “Judge,” “Lawers,” “cop Union.” R. 1 at 1. Then, in the section that asks
for crimes with which he has been charged, Sanchez lists various state cases (there
appear to be eight separate ones, one of which is pending). Id. at 3. He contends that
evidence was withheld and destroyed and lies were told to the juries. Id. Sanchez goes
on to assert a widespread conspiracy, purporting to violate RICO, 18 U.S.C. § 1961 et
seq. See R. 1 at 4 (“in v[i]ol[ati]on of the R[I]CO sta[tute]”). The allegations complaint
of various acts in federal cases as well, including Case No. 12 C 6347, over which this
Court presided. Id. at 6. The conspiracy “goes all the way up to the US Supreme
Court,” id. at 8, the Seventh Circuit, id. at 8-9, and this Court, id. at 9-10.
None of the defendants identified in the complaint title (to the extent it
actually names parties) are actually described as conspirators, so the complaint can
be dismissed on that ground alone. The United States and the State of Illinois enjoy
sovereign immunity, so they cannot be valid targets of the complaint. In any event,
the allegation of widespread conspiracy is fanciful, sprawling across various cases,
the state and federal court systems, and various levels of those courts, all the way up
to the United States Supreme Court. To the extent the complaint targets the Court’s
decisions in Case No. 12 C 6347, which was affirmed by the Seventh Circuit, 880 F.3d
349 (7th Cir. 2018), the current case is really a Rule 60(b) motion seeking to vacate
the judgment, and there is no basis for doing so.
The case is dismissed. Ordinarily, the Court would give the plaintiff a chance
to amend the complaint. But because of the frivolous nature of the allegations, any
successful amendment would in reality be a new case, not an amendment. In light of
the dismissal, the motion to proceed in forma pauperis and for attorney
representation are denied (Sanchez lists only one word, “Rosewine,” when stating
which attorneys he has contacted, and in any event, no attorney can fix this
complaint). Final judgment shall be entered.
ENTERED:
s/Edmond E. Chang
Honorable Edmond E. Chang
United States District Judge
DATE: April 12, 2019
2

-t
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Unifefr plates Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 19, 2020’
Decided March 20, 2020
Before
DANIEL A. MANION, Circuit Judge
DIANE S. SYKES, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-1836
Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

RUBEN SANCHEZ,
Plaintiff-Appellant,

v.

No. 18 C 06356

UNITED STATES OF AMERICA, et al„
Defendan ts-Appellees.

Edmond E. Chang,

Judge.

ORDER
Ruben Sanchez posits a nationwide conspiracy to violate his civil rights. The
district court screened the complaint under 28 U.S.C. § 1915(e)(2), denied Sanchez's
request for counsel, and dismissed the suit without leave to amend. Because the suit is
frivolous and amending the complaint would not cure its defects, we affirm.
Sanchez's complaint names as defendants the "U.S.," "Ill. State," "Cook County,"
"Chicago," "Judge[s]," "Law[y]ers," and "cop Union." He wants judges prosecuted as
’ The defendants were not served with process and are not participating in this
appeal. After examining the appellant's brief and the record, we have concluded that
the case is appropriate for summary disposition. Fed. R. App. P. 34(a)(2).

App.001

$

Page 2

No. 19-1836

the "head[s] of organized] crime" because they are "evil [people]." The judges, he
alleges, have secretly conspired with countless public and private officials (including
local police, attorneys, and the clerk of the United States Supreme Court) to withhold
and destroy evidence "all to protect one of [their] own." Sanchez lists state and federal
cases in which these conspiratorial acts occurred. He was not a litigant in all of these
suits, but he asserts that their outcomes or proceedings were unjust.
Sanchez moved for leave to file the complaint without prepaying filing fees and
for recruited counsel. He wrote one word—"Rosewine"—to explain which attorneys he
had contacted and why he was unable to retain one on his own.
Because Sanchez sought leave to sue without prepaying the filing fee, the district
court screened the complaint under § 1915(e)(2)(B)(i)/ which requires dismissal if the
action is frivolous. The court ruled that, because Sanchez's allegations "sprawlfed]
across various cases, the state and federal court systems, and various levels of those
courts, all the way up to the United States Supreme Court," they were "fanciful." To the
extent that it could discern whom Sanchez wanted to sue, the court reasoned that some
defendants—the United States and the State of Illinois—were immune from suit and
others were not "actually described as conspirators in the complaint." The court ruled
that these problems were incurable so amendment would be futile. Finally, the court
denied Sanchez's motion to recruit counsel because Sanchez provided only one obscure
word to explain why he could not secure a lawyer on his own and because "no attorney
can fix this complaint."
On appeal, Sanchez primarily argues that the district court wrongly dismissed
the suit. He contends that he should have received leave to amend, with counsel,
because an attorney could have clarified the defendants and stated a proper claim.
The district court permissibly denied leave to amend. Generally, a plaintiff is
entitled to amend the complaint once as a matter of right, and a district court should
"freely give leave [to amend] when justice so requires." Fed. R. ClV. P. 15(a). But district
courts may deny leave to amend when "the amendment would be futile," Arreola v.
Godinez, 546 F.3d 788, 796 (7th Cir. 2008), and we review a ruling on futility de novo,
Heng v. Heavner, Beyers & Mihlar, LLC, 849 F.3d 348, 354 (7th Cir. 2017). Here, the court
correctly decided that Sanchez's allegations are incurably frivolous. To begin, they are
irrational. See Denton v. Hernandez, 504 U.S 25, 32-33 (1992); Neitzke v. Williams, 490 U.S.
319,325 (1989). Sanchez imagines officials from all branches and levels of government
secretly conspiring with unions and lawyers, but the imagined network is so vast that

App.002

Page 3

No. 19-1836

secrecy could not be possible. No amendment that retains this conspiracy could cure the
internal contradiction that it involves countless participants in a secret pact.
The district court also did not abuse its discretion in refusing to recruit counsel
for the purpose of proposing an amended complaint. When faced with a request under
§ 1915(e)(1) for counsel, a district court's threshold inquiry is whether "the indigent
plaintiff made a reasonable attempt to obtain counsel." Pruitt v. Mote, 503 F.3d 647, 654
(7th Cir. 2007) (en banc). The district ordered Sanchez (1) to list all attorneys and
organizations from whom he sought representation, and (2) to explain why he was
unsuccessful. It also warned him that he "must" complete both items or the court may
deny his morion. Sanchez left one of those two questions blank, and for the other he
provided only one unhelpful word ("Rosewine"). Under these circumstances (and apart
from the frivolousness of the complaint), the district court reasonably denied his
request. See id.
We have considered Sanchez's other arguments, and none has merit.
AFFIRMED

App.003

/

My notes on some events that cause me to sue and have the courts examine what has occurred
and whether the doctrine of immunity needs to be changed or removed:
Arrest Date: May 15, 2010, Case# 36130666
Attorney Robert Grossman received $800.00. Four days after arrest, May 19, 2010, this made
him my paid attorney.
A. Judge Peter Felice first court date June 10, 2010.
B. Grossman no show, his friend John Farano appeared in his place. July 19, 2010, 61 days after
Grossman received my $800.00. Grossman only appeared once.
Received in open court discovery at the second court date.
Kerry M. Kennedy on the bench. Grossman said he knows Kennedy. But no appearance or
motion were filed by paid attorney and they never appeared in court again. State officer Farnesi
#5731. Next date, August 24, 2010.
Police report said I took sobriety test at the scen^'.tThere is no video and my rights are violated as
the officertrefused te look at report even though state cop car had computer. My passenger and I
observe that officer has a computer screen .hchfS car. Where is the tape, 1 did not refuse to take a
sobriety test. I had been given ttoe't&st 1 hour and 10 minutes after arrest. I received police report
May 19, 2011, one year later.
On August 10, 2010, Garcia *16093 CPD gang unit, 4th precinct. Beat me at 9380 S. Kreiter,
where I live Given $65,000 Bond kept in Cook Cunty Jail. This is an evil cop, as shown by the
following:
#1 July 14, 2007 Alfonso Cazares #07126093301 Federal Court City of Chicago paid out
$10,000 #08cv4307 Judge Coar.
#2 August 10, 2010, Me, Garcia’s partner Murphy #10191 refused to appear in court quit his job
and moved.
#3 April 30, 2013, #Garcia #16093 shot Ortiz Glaze # 14c3120 Judge Amy J. St. Eve. City of
Chicago paid out $500,000.
#4 June 1, 2019 Garcia #16093 Beat Alfonso Gazares again: 1 handwrote #18cv06356 stamped
June 10, 2019 U.S.C.A-7111 Circuit.
“Motion for Leave to Proceed in Forma Pauperis” was filed in the 7th Circuit. 1 asked the court
to appoint retired Federal Judge Richard Posner, now a professor at a college that may receive
federal tax funds. 9-11 -2019 college received certified letter which 1 asked for their help.
C. August 24, 2010,1 was kept in Cook County Jail.

App.004

And not brought to Bridgeview for Case #36130660. No attorney’s name on the transcript. Judge
Kerry M. Kennedy never saw John Farano, but said his name. Kennedy did not check lock up but
raises Bond from an "1 bond" to $100,000. Kennedy did see Grossman on 7/9/2010 but did not
say Grossman’s name.
/?
D. August 25, 2010, Honorable Judge: Joan M. O’Brien in open court, no attorney, just me.
Judge (D3 14-24) says no attorney on the file. Who removed attorney’s name from file? (D 2/3
23-1 Quash and Recall Warrant)
E. September 30, 2010, keeping me out of the court. Kennedy E 2-3 said check lock up I had
motions to give that I was prevented from filing.
F. October 12, 2010, Kennedy asked about other case and who is the lawyer. I said “Ms.
Barido.” Kennedy said “Maria Barido?” 1 said, “Yes.” Kennedy Said P.D. appointed to this
matter and raises the 1 bond back up by $100,000, noC$65,000+$ 100,000=$ 165,000.

nt**)

G. November 8, 2010, Kennedy, P.D. Maria Barido not there. P.D. James Saracco said by
agreement the matter is continued, 1 said not by agreement already 177 days.
State Attorney Amari Dawson said beeewee found fit November 8th. This is a lie (found fit
October 12th, 2010. Read in open court case number 10cvl5041. Bad Judge Thomas M. Davy,
P.D. Maria Barido in court when read) Kennedy would not let me talk, pushed me out of the
courtroom by bailiff.
November 8, 2010, Davy case number lOcv 15041. No Honorable Thomas M. Davy argued with
me, P.D. Maria was not in the courtroom. Davy said psych report not read. State Attorney
Kathleen Landan said, “doesn’t appear that it was ordered.” Judge and state attorney both just
lied in open court. 1 said not by agreement and demand speedy trial.
H. November 18, 2010, kept out of court at Bridgeview.
I. December 20, 2010, #36130666 Kerry M. Kennedy, me, not by agreement. Kennedy said keep
my motion and wont' review it. I was forced to throw motion at bench. P.D. James Saracco said
have custodians to pick them up. Kennedy said to hear motion before jury trial.
J. January 24, 2011, Jagielski “now Chief Judge” the coward Kennedy has deserted his post.
Kept me out of the courtroom.
K. January 25, 2011, Honorable Joan O’Brien, P.D. James Saracco said Judge Jagielski has on
call day today. Honorable O’Brien, “so are you waiving defendant’s appearance?” P.D. said
“yes.” Not by agreement with me, that was a railroading.
L. January 26, 2011. Raymond L. Jagielski on bench. P.D. Saracco not there. P.D. Ted
Tharasauras. I’m at Bridgeview courthouse, kept out of both courtrooms, standing in bullpen all
day. No agreement by me to continue.
M. March 8, 2011, Jagielski on bench, P.D. James Saracco said if I don’t plead guilty, they will
start all over 1 have been railroaded for 7 months already. P.D. won’t help, I think he's afraid of
iptvlTOffrhearing.
judges, trussing

Sqi/ tr bull f&ri
App.005

S. October 31. 201 ], Donald Havis on bench. This man said, “go to Judge Jagielski.”
T. November 7, 2011, Judge Peter Felice said, “go to Judge Jagielski.” and that 1 should contact
ARDC about Grossman. 1 asked about transcript for December 20, 2020 this Judge I first seen on
June 10, 2010.
U. November 21,2011, Raymond L. Jagielski on bench. Argues with me, said he has file with
attorney Farano name on it. That is not my attorney. Robert G. Grossman is my paid attorney.
(Fie has no name on file for Grossman. On August 25, 2010, Judge O’Brien said no names at all.)
Judge tries to intimidate by saying he will reactivate the $100,000 bond. Who put Farano’s name
back?
V. December 19, 2011, Jagielski on bench, appointed P.D.
W. January 9, 2012, Havis on bench. 1 was in open court, argument with Judge and P.D Thomas
Herris about receiving my transcripts.
X. February 27, 2012, Havis on bench. Everybody agrees to go to Judge Jagielski. Two
transcripts still to get October 12, 2010, November 18, 2010.
BB. November 5, 2012, Honorable Judge Joan Margaret O’Brien said on August 25, 2010, no
attorney name on file. Judge on this day said they are to file attorney appearance form.
November 21, 2011, Jagielski said attorney Farano’s name on file. Who is tampering with the
files?
II. May 10, 2013 missing.
KK. March 24, 2014, Kennedy M. Kennedy, "the deserter," is back, said Judge Jagielski took the
plea March of 2011. But they all kept me out of the courtroom from December 20, 2010 to
March 8, 2011. Evil has been caught.
NN. July 21,2014, Havis on bench, P.D. Ronald Haze talked about taking found witnesses P.D.
did talk to my witnesses. Haze can testify to what my witnesses said. Witness David Massy now
dead.
/

PP. On September 8, 2014, Dishonored Kennedy said he knew’fchat Robert Grossman got in front
of him on July 19, 2010. But Kennedy acted like he didn’t know Grossman on August 24, 2010.
And said attorney Farano’s name without ever seeing Farano and said this went to Jagielski. This
is the last time 1 saw Kennedy or Jagielski. They both desert the bench. 1 call that cowardice of
those in possession of power "Evil on the loss." Kennedy said he was just doing what he was
told. Who told him what to do?
QQ On September 22, 2014. Yes, Havis was on the bench. He threatens to lock me up for 6
months for trying to speak; this was the way they kept words off the record.
TT On November 24, 2014. Yes, Havis on bench. Throws the case. Who told him to throw the
case?

App.006

On January 29, 2017. 2017 IL App (1st) 160761-U. Justice McBride delivered Order Reversed
and Remanded. I went back in front of that Judge Donald Havis. P.D. Chief L.D.R. Marcos
Rayes appeared before the bench and put Havis to shame because the state would not give
documents. 1 did not have any transcripts of anything after June 29, 2017.
On February 6, 2019,1 filed supplement to post conviction petition. Affidavit to background of
conspiracy.
On March 1,2019, Havis on the bench. That fellow threw the case again.
On March 15, 2019, P.D. Henry L. Hams filed notice of appeal, Judge did not sign that day.
On February 26, 2020, office Appellate Defender finally sends notice they been given the case
number 1-19-0562.
On July 10, 2020, Appellate defender Robert Hirschhorn sent letter indicated that he has been
appointed. He was also on case 0-16-0761 where June 29, 2017 Justice McBride remanded the
case back where chief Judge went hiding along with Kennedy and Havis threw it. Now for the
second time without addressing motion giving to Kennedy on December 20, 2010.
On May 19, 2010, Robert Grossman, private attorney, received $800.00, 61 days before second
court date July 19, 2010. Grossman had an associate appear on June 10, 2010, named John
Farano. That was first court date. Neither attorney appeared again. No appearance ever filed. On
November 7, 2011, Judge Peter Felice who seen John Farano on June 10, 2010, told me on
November 7, 2011 to go to ARDC. Complaint filed with ARDC March 7, 2012, #20121N02423.
June 5, 2012 Grossan lies to ARDC in written statement. I provided documents.
But still James L. Needles went with the lies and against the truth and sides with attorney
Grossman lies and ignores timeline and court documents and attorney Grossman letter head
recite $800.00 dated May 19, 2010.
On June 6, 2012, Grossman sent $400.00, check number 3591 without letter explaining why he
did not appear August 24 hearing, or address refusal.
On June 11,2012, Grossman sent letter stating all settled. This is a lie as I paid $800. On May
19, 2010, Grossman had 26 days to file petition to rescind my statutory summary suspension, and
no one appeared on August 24, 2010 to represent me, so 1 still ■had'un cashed check number 2591
half*'
/and-safd he has to return all $800.00.

^ Saf
Case number 12 M l 129530, Sidney A. Jones, III, on the bench. No transcript but Jones kept
saying 1 could not show any documents or talk about ARDC or how Grossman lied so I filed an
appeal. On June 11,2013, case number 1-12-2534, Grossman failed to file brief. Court
proceeded without Grossman.
On July 12, 2013, summary order Justice McBride wrote against me, saying I did not follow
their rules. Grossman has retired sometime before September 23, 2014, according to ARDC
print-out report, dated September 23, 2014.

App.007

The case that Grossman deserted is still an open case, case number 1 -19-0562. 1 have not
received transcripts from Robert Hirschhorn yet.
On August 10, 2010, #16093 Garcia beat me and lied. His partner #10191 Murphy never testified
in open court. He did one federal deposition on October 15, 2014 then quit his job and moved out
of state.
On August 11, 2010, set bond $65000.
On August 12, 2010, Medical report and psych report. Psych report said couldn't be paranoia
schizophrenia. Now says bipolar. Said if I don’t take psych medicines Judge could say I'm not fit
for trial and keep in jail. 1 don’t take psych medicines on at home. 1 only take Vicodin for pain.
Report doctor put in I'm drinking 18 beers. No, truth 8 to 10 beers in a sitting.
On August 13, 2010, case number 10 cr 15041, Judge James Brown, state attorney Reeder,
counts 2, 3, 4, 5, 6, 7, 8, 9, 10, no-suit, nolle pros. Garcia said put lights on 93rd union but there is
no Union street there. Garcia admitted I never said not to test. I showed my stomach with scars
from operation, Judge said put shirt down.
On September 13, 2010, P.D. Maria Barrido said she would not address 1st DU1 and they were
using 1st DU1 to turn this DU1 into felony. I did not refuse in either DUI. 1 gave list of 10 things
to motion for discovery. P.D. did not include any. In front of "dishonored" Thomas M. Davy, 1
said 1 guess I would defend myself. Davy did not say yes, instead, he said I must have psych
evaluation. I asked for speed trial. Davy said fitness issue. Remember doctor on August 12, 2010
said Judge can say not fit if 1 refuse psych medicine. P.D. Maria Barrido did ask for discovery
and said would prepare package.
On October 12, 2010, Davy on bench. He read psych report -- fit with medicine. To represent
myself, I had CCCR 0605A sheet with Davy’s handwritten writ report. Davy is a bad human
being. He should have asked why I would say I defend myself. Now that he knows I am fit. Look
at case 15 me 1216205. On November 23, 2015, doctor Erick A. Neu, a Psych. D. this time
wrote fit with no medicines. They do what the Judge on the bench tells them to, same doctor.
On November 8, 2010, P.D. Maria Barrido was not in the court. P.D. Ross Elliott took Barrido’s
place. Davy was on the bench. 4 lies, psych report not done yet. State Kathleen Lanahan lied and
said psych report was not ordered. I said report read on October 12, 2010.1 said continued not by
agreement. Davy and Lanahan perjure themselves on the record.
On November 18, 2010, before entering the courtroom, P.D. Barrido said I must order sound and
video tape myself if 1 want a copy (November 29, 2010, OEMC-FOIA Mary Thompson rights,
they only keep records for 30 days. They were intentionally destroying evidence making this is
an organized crime.) In open court, Davy on bench, indicates read October 12, 2010 fit to stand
trial. P.D. Barrido didn’t recall one way or another. Good thing I can recall October 12, 2010.
On December 17, 2010, E-3, Davy said anything I said can be used against me. He was trying to
keep off the record.

App.008

I asked for a copy of all discovery P.D. Barrido was refusing to give me a copy. Judge Davy: the
third time you don’t understand I am going to send back to forensic because I think 1 have an
issue as to your fitness to stand trial.
On December 21,2010, they removed me from medical ward at Cook County Jail and sent to
psych ward, and overdose me on a new drug. Do we see a pattern of torture? On December 21,
2010, P.D. Maria Barrido sent letter told me, yes, she would not give me my discovery. This
P.D. has refused since September 13, 2010.
On January 25, 2010, Jury trial. P.D. Barrido did not (#1) show page 5 or mugshot of police
report; (#2) show jury any video or play any tape all has been destroyed; (#3) ask for
impeachment instruction; (#4) call partner #10191 William Murphy to my knowledge, Murphy
only gave 1 deposition on October 15, 2014, 73 pages and answered "1 don’t recall" 60+ times.
Murphy quit his job as a police officer and moved out of state at federaljailCMurphy refused to
come to court and testify. The feds will go to Mexico to get El Chapo but they won’t make an
ex-Chicago police officer testify in open court.
#5 Let me testify, G76 Davy: Is your client going to testify? Barrido answered No. During break
in trial P.D. Barrido and P.D. John Kern in the back room I said I want to testify.
Garcia said light and siren on after second stop, police report wrote second stop. 9304 Burley,
Lie no. 42. Garcia had to admit no sign or light at 93rd and Burley. On August 13, 2010, Prelim
Garcia said light and siren at 93rd Union, which was a lie. In fact, it is second stop 93rd and
Harbor. Witfrewi what Garcia was saying, lights and sirens would be on for better then % miles.
On November 10, 2011, case number 10 vp 10958, Garcia on CD tape (this CD tape Biaag^s ^
Judge taking phone call) said lights and siren 1 block before stopped at 9380 S. Kreiter. In fact,
there is a bus stop at 9320 South Ewing. This is after 3rd stop and past Bridge, Garcia Proceeded
over Bridge. At that point, there was a center line that the car kept maneuvering over 3 or 4 times
over into the opposite lane, o a £<?//who vJ&t n^
On August 3, 2015, case number 12 c 6347, federal jury trial. Page 525 Garcia said before got to
the Bridge Sanchez’s vehicle 3 times went left of the center lane (in fact, May 4, 2012 petition
for post-conviction relief #10 cr 15040,1 measured distance that shows Garcia was lying in
Davy’s court. By the time case goes to federal trial, Garcia has to change his story) Garcia said
pull alongside me into oncoming traffic Garcia went across a double yellow line Garcia is forced
to admit he was going down a one-way street, the wrong way. Bold move, this cop is breaking
law after law. Garcia said order me to the ground and I had hand to my side with fists clenched.
Exhibit 1 arrest report mugshot, Garcia forced to admit I have no shirt on. Garcia forced to admit
1 have massive scars on stomach. Garcia lied and said seeing scars later and when asked did 1 say
look at my stomach I am laying on the ground. Garcia said no. Fact is, no shirt, Garcia said
hands to side sees left hand and sees right hand (stomach is between left and right hand. Truth
Garcia had gun out pointing at me. 1 raised hands and dropped keys/ Jury didn’t see my stomach
because P.D. said I was not going to testify. I remember I was doped) by court order. Garcia
admitted he hit me, and 1 was bleeding from my mouth. He forced me, a disabled man, to the
ground, and I tried to protect my stomach with/one hand.

tk
App.009

* 6295 Karen Etti; This cop came to see me in a room with a camera on the back wall. Where is
the tape?
Etti said she asked me to get up to take test and 1 said no. That was a lie. Etti admitted I asked for
help up which she didn't’ provide.

Garcia Prelim hearing: On August 13, 2010 (page 12) P.D. asked and what was his response to
the request to participate? Did he verbally say no? Page 13 Garcia answered No! Etti said and
asked after Garcia and Murphy if they would call for an ambulance. State asked did you request
an ambulance because you believed he suffered any kind of injury? Etti answered no, clearly a
lie. CD #11-102011
#10 vp 10958 Garcia said call ambulance Because of injuries said 1 asked for help up by holding
pants said no cameras in hold cell. Garcia said only time talk when ask for help up. Etti was
caught lying with Garcia’s statements. Etti said someone assisted me up. Don’t know if fire
engine or paramedic and 1 walked.
On August 3, 2015 #12 cv 6347, page 477 Did you see any injuries on him? Etti said not that 1
can recall, no. (Lie, just look at mugshot) page 478 Etti said I told him 1 couldn’t lift him off the
floor. Ruben then said Etti could lift him up...pull him up by his pants. Etti then asked the
officers to help Etti, assisted Etti in helping Ruben off the floor page 479 Etti said they helped
Ruben off the floor and put Ruben on the bench that was in the room and eventually Ruben went
back to the floor. 1 never fell back to the floor when I was helped up and Etti never asked me to
take any test when I was standing.
On March 8, 2011,15. Davy said its okay P.D. Barrido did not ask for impeachment instruction
to be given to the jury. Judge's words: "I don’t know that a juror would know what an
impeachment is if it falls out if a TV'and hit them on the head." P.D. talked about my stomach
and tfecffaeHAEcKwhat she aske^"j5avy-ask-ed-if he would like to see my stomach and Davy did
not answer. Appeal #1-11-900 appellate defender Robin Robertson did not write about
November 18 or December 17, 2010. Fact is, on these two dates, I said I would defend myself.
September 13, and November 18 and December 17, 2010, that 4s-ft©t-speaK-ef 1 asked for my
discovery so much Davy ordered in open court psych evaluation to have me on a drug that 1
don’t4a-ferDoctor’s report February 8, 2011, fell hit and cut head they gave me twice the amount
of DepaKX)te. They started giving on December 21 or 22. Doctor cut drug in !A in order. On
August 29, 2013, Justice Pucinski wrote about charges that were dropped on August 13, 2010.
Twist the truth about Davy over doping me, does not write about December 17 at all and tries to
protect his crew that covered behind immunity. (Here is a fact case 15 me 1 216205 Dr. Neu
wrote November 9, 2015, filed on November 23, 2015. Fit to stand trial no medicine prescribed
this case was dismissed on February 8, 2016. Read this case it is 2 pages and a disgrace to the
courts they allowed a 75-year-old woman to be kidnapped and proves the doctor is a flip flopper,
he wrote what the Judge wanted. Evil Judge Clarence L. Burch, state attorney Jordan Matthis,
city attorney Erica Hokens) Appellate defender Robin Robertson on May 6, 2013, quit and

App.010

moved out of state. Appellate defender Stephen L. Gentry is replacement and went to Illinois
Supreme Court # 116647 Court denied hearing case. Gentry quit on December 5. 2013.
On May 4. 2012, 1 went pro se, handwrote petition for post-conviction relief. Davy threw case. I
appealed case, case number #1 -13-0369.
There are 2 cases that the other side did not respond 1 )# I -12-2534 Sanchez v. Grossman. There
is no transcript from hearing and Grossman did not reply to the brief. Appellate court went with
Grossman, a lawyer who does not respond; 2) #1-12-2354 Sanchez v. City of Chicago. Chicago
did not respond to brief. This case has CD included 10 vp 10958, 11 Ml 450566 Patrick T.
Rodgers threw this case no transcript of hearings but before throwing Rogers struck specification
of errors filed on June 25, 2015. This document has pictures of my stomach. I made 1 error on
the CD they removed the van before Jury trial with Davy on bench in December, not in
November. But it was still before trial, I still did not refuse. Because Rogers did not have
transcript you will read in. But if you cannot find this document, I have one stamped file. Can
you believe Appellate defender Stephen L. Gentry assigned again, and this demanded Justice
Pucinski right to order again on February 11, 2015. (#1) Petitioner has standing to seek post­
conviction relief. But (#2) Petition failed to set forth the gist of meritorious constitutional claim.
Garcia has been caught lying and beating disabled person and all the way up to the Judges have
helped to cover it up. Gentry sent letter on February 18, 2015, case number 119021 Supreme
Court of Illinois on January 20, 2016, motion was denied. Look at Exhibit A to E, and page 2 of
this report #1,2, 3, 4. 4 is still being looked by Cook County State’s Attorney’s Richard
Sperando * 551 phone number: 773-674-2779. Because of what Garcia did to Alfoso Casares for
a second time in 12 years. Exhibit E, on November 18, 2016, case number 1-14-0420, Justice
Mason opinion wrote against Thomas M. Davy and recalled the case.
1 can only say "evil at work both 1-12-2534" and 1-12-3452 (look at ARDC) go against me and
the court has no transcripts. Good thing is, I have a CD from where Garcia said they called
ambulance because of my injuries. Now tell'Lord God, does not take notice. I tried to stay on
timeline. I filed in federal court. Received cm^ugust 10, 2012, 1:12-cv-06347. Judge John F.
Grady Magistrate Judge Geraldine Soat Brown. On February 14, 2013, notification of docket
entry Edmond E. Chang on the bench. Begins throwing all claims out the door, dismissing all but
Garcia and Cook County Sheriff Felix, every buddy cowards under immunity ipenf Evil. They
said 1 cannot talk all that Garcia has done, on page 2 of this report 1,2, 3, 4 at^preirial 1 said to
Chang. But transcript said state says complete police report was not here. On July 15, 2015,1
went home and look for what is missing. 1 found days before trial by Jury on August 3, 2015.
Looking from July 15, 2015,1 found page 5 of the police report, at trial my attorney Thomas D.
Rosenwein in a side bar shows Judge Edmond E. Chang page 5 of the police report, the judge
sitting on the bench said 1 could not show the Jury the page that police officer wrote 1 was in
pain, not drunk or in withdrawal. Think how long a person smells of alcohol. You can smel l a
person that next morning after police lawyer said that in a side bar. He looked the Jury in the
eyes and said they have to believe 1 was guilty of DU1, causing the Jury to think 1 was wrong. 1
appealed. The Appellate Court wrote the Judge was wrong to not let page 5 in but threw the case
out on May 16, 2017, case number 16-3546, in 7th Circuit.
Appellate defender Rayiner Hashem was appointed by Edmond E. Chang, 1 think. Said in a letter
sent after we met in May 16, 204-2 in Chicago. He flew from Washington DC,»he dd not say in
k/k* T

Ml]

App.011

the letter t4^«tjtvheHrc^as-g©4*g4e-de^(#l) He was an intern for a Judge; (#2) that he would not
address the whole case; (#3) that the Judge will abuse them with fines if they speak out. The case
is thrown out. 1 pro se to the U.S. Supreme Court postmark 4-17-201 8 time 2:43 pm. Stamped
received on April 19, 2018. Supreme Court of the United States office of the Clerk. On April 19,
2018, Scott S. Harris, Clerk Michael Duggan (202)479-3025 sent letter, saying 1 should have
filed by April 16, 2018 and send everything back reject. Postmark 4-24-2-18 11:23 am, motion
for leave to accept filing of petition for a writ of certiorari and motion to proceed in forma pauper
is labeled Exhibit 1, 1040.com Tax guide 2018. April 16 was federal legal holiday, District of
Columbia Emancipation Day.

On May 21,2018, Scott S. Harris, clerk. Motion was denied. Evil is ramped in the passion of
power. Letter has Re: Ruben Sanchez v. City of Chicago et al. no. 17 M1 20 (1 am not sure the
case number)
April 19, 2018 Scott S. Harris
Re: Sanchez v. City of Chicago et al. USCA 7 NO. 16-3546
Received on September 18, 2018, 1:18-cv-06356. Edmond E. Chang. They gave my new case
back to a Judge to throw out the case again and he did.
This case comes before the U.S. Supreme Court for a second time because most all to date has
cowered behind immunity to cover bad behavior since the first date filed in case number 1:18cv-06357, denied by Appellate Court. More bad has come to light because Judges on the bench
in Cook Count Circuit Court in their crew including Appellate Court 1-12-2534 (Sidney A.
Jones, 111 12 Ml 129530) Has no transcript. But ARDC, Appellate Court ignored report.
Grossman did not reply and McBride went against me. 1-12-2354 (Patrick T. Rogers 11 Ml
450566) Has no transcripts. But CD included 10 vp 10958. City did not reply, and Lavin went
against me. These names also appeared in case 11-0900-13-0369. Pucinski wrote in those two
cases. But when Mason #14042 wrote against Davy on November 28, 2015, Pucinski and Smith
wrote in that order that was remand back to Davy, now he is retired. Look at Supreme Court
Illinois 119021 to find damning pro se documents. And they still chose to go against me for their
crew and protect with immunity.
On September 3 to 5, 2015, case number 15 op 72522, Megan Goldish on the bench, gave me 2
years order protection. My neighbor Francis Shirk was kidnapped by supposed relatives, would
not bring her in the court. Doctor lied, said 80 years old, she was born on October 31, 1939.
Other people lied in the court, they wrote false reports. 1 to this day do not know where my
neighbor Francis is. 1 take these transcripts to Chief Federal Judge Ruben Castillo on April 12,
2016, at 8:30 am in courtroom 2548.1 walked long hall and gave a lady in Judge's chamber.
Also gave a copy to 4th district along with case 15 mcl 216205.
On February 18, 2016, Clarence L. Burch on the bench. Case was dismissed. This Judge told me
to shut up so my words was not going to be on the record.

App.012

r
This case is coming before the U.S. Supreme Court because Evil is in possession of power, goes
against good, and then cowers behind immunity all the way to the outside of your door. People
that sit even on judicial seats claim that right of immunity and should be removed, after Edmond
E. Chang forced a disabled person with no funds to pay $505.00 and refused to appoint help on
July 24, 2019. The U.S. Court of Appeals threw out the case on March 20, 2020. One of the
people on the bench was Amy J. St. Eve. She has knowledge of case 14 C 3120, date: 3-30-2015,
and the evil of the City of Chicago and the State of Illinois. Because Amy agreed to a settlement
to $500,000.00. But now acted stupid, the court said they would figure this out without me
having an attorney. But then said I did not comply to their rules.
Evil makes rules so evil can get away and does not care good falls to the side. This has
not one but
happened here, which shows immunity is Evil and has no place in the courts.
all people involved should be removed from office. 1 stand by my belief that the U.S. Appellate
Court chose to ignore and in page 11 and 12 should be applied to not only my case but all cases.
Because of bad conduct in the court. Look what happened on August 10-11, 2020. In the city of
Chicago, good people are enraged of what a bad group of people in a passion of power are doing
and then they cower behind immunity. It is time to address this unjust conduct. 1 still have 5
unopened boxes that Rayiner Hashem sent back from the 7th Circuit Appeal . Elowever, in
sequence there be numbers with one missing.

App.013

